i1 M ----

/■

\

r*. n

■

&

i
i

i :

IN THE

w

SUPREME COURT OF THE UNITED STATES..

Supie, it C(k .U.S.

r,; '.o

ROBERT PERNELL
(Petitioner-Appellant)

AUG 2 8 T23
off.oe >'.■:

V.

UNITED STATES OF AMERICA,
(Plaintiff-Appellee)

On Petition for a Writ of Certiorari to the United States Court of Appeals
for the Fourth Circuit.

PETITION FOR WRIT OF CERTIORARI

Robert Pernell
Reg. No.33228-083
S.FCI Talledega
Federal Corr. Institution
P.M.B. 1000
Talladega Alabama 35160
Appearing Pro-se

QUESTIONS PRESENTED

I.

WHETHER THE GOVERNING PROVISIONS IN THE FOURTH CIRCUIT COURT
OF APPEALS PRECEDENT CASE LAW, IN RE GODDARD, 170 F.3d 43541999),
HAS UNLAWFULLY CREATED AN ARBITRARY OR AMBIGUOUS APPLICATION
OF 28 U.S.C. §2255(h), THAT IS VOID AND UNENFORCEABLE:

(a)

II.
•; $

To automatically dismiss a defaulted petition for a
direct appeal, pursuant to §2244(B)(3)(a) based solely
on the governing provisions in Goddard"iiarbitraxily
defining thaf petition as a second or successive §2255. motion
'iwhich erroneously triggered the jurisdictional requirements
of 28 U.S.C. §2255(h);

(b)

In light of a conflict with the Supreme Court decision
in Roe v. Flores, 120 S.Ct. 1029, that mandates the
automatic vacatur and remand of a petition to reinstate
a direct appeal, When a court fails to conduct a
circumstance-specific inquiry before making any ruling
on the petition; and

(c)

In light of a conflict with the Supreme Court decision
in Holland v. Florida, 130 S.Ct. 2549, that mandates
a circumstance-specific inquiry as to whether extra­
ordinary circumstances existed, in the petition, In
order to warrant the waiver, forfeiture, or equitable
tolling of any procedural or provisional violations. ,

WHETHER A DEFENDANT HAS A RIGHT TO FILE A PROCEDURALLY DEFAULTED
MOTION TO REINSTATE A DIRECT; JAPPEAL, PURSUANT TO ROE v. FLORES,
F20, S.Ct. 102942000), USING A §2255 PETITION,'WITHOUT TRIGGERING'
THE JURISDICTIONAL REQUIREMENTS OF §2255(h)?

i

PARTIEBtuTO THE PROCEEDINGS:

Petitioner-Appellant, ROBERT PERNELL,("Pern-ell"), was a Criminal Defendant
in the United States District Court for the Eastern District of Virginia,
Richmond Division, in USDC Criminal No. 3:09-cr-00452-REP-DJN-l; as a Movant
in the United States District Court for the Eastern District of Virginia,
Richmond Division in USDC Civil No. 3:15-cv-00723-REP-DJN-l; as Appellant
in the United States Court of Appeals for the Fourth Circuit, ("Fourth Circuit"),
in USCA No.17—6104;.as a Movant in the United States District Court for the
Eastern District of Virginia, Richmond Division, in USDC Criminal No. 3:09-cr000452-REP-DJN-1; and as Appellant in the United States Court of Appeals for
the Fourth Circuit in USCA No.19-7625. Respondent, the United States of America,
was the Plaintiff in the District Court and the Appellee in the Fourth Circuit.

ii

TABLE OF CONTENTS:.

QUESTIONS PRESENTED.

i

PARTIES TO THE PROCEEDINGS

li

TABLE OF CONTENTS

Hi

TABLE OF AUTHORITIES

iv - v

APPENDIX TABLE OF CONTENTS

y.i

OPINION BELOW

01

STATEMENT OF JURISDICTION

01

CONSTITUTIONAL PROVISIONS INVOLVED

02

STATEMENT OF CASE

03

The Proceedings Below

03

1. Charged Offence Conduct

03

REASONS FOR GRANTING THE PETITION:

04

A.

I.

THE GOVERNING PROVISIONS IN THE F00E3H CIRCUIT COURT OF APPEALS
PRECEDENT CASE LAW, IN RE GODDARD, 170 F.3d U.S. 435(1999)S, HAS
UHT.APFULLY CREATED AN ARBITRARY OR AMBIGUOUS APPLICATION OF
28 U.S.C. §2255(h), THAT IS VOID AND UNENFORCEABLE:

(a)

To Automatically Dismiss a Defaulted Petition for a Direct Appeal,
Pursuant to 52244(B)(3)(a) Based Solely on the Governing Provisions
in Goddard Arbitrarily Defining that Petition as a Second and
Successive §2255 Motion, Which Erroneously Triggered the Jurisdictional
Requirements of 28 U.S.C. 52255(h);

(b)

In Light of a Conflict with the Supreme Court Decision in Roe
v. Flores, 120 S.Ct. 1029(2000), that Mandates the Automatic
Vacatur and Remand of a Petition to Reinstate a Direct Appeal, When
a Court Fails to Conduct a Circumstance-Specific Inquiry Before Making
any Ruling on the Petition; And

(c)

In Light of a Conflict with the Supreme Court Decision in. Holland v.
Florida, 130 S.Ct.2549(2010), that Mandates a Circumstance-Specific
Inquiry as to Whether Extraordinary Circumstances Existed, in the
Petition, In Order to Warrant the Waiver, Forfeiture, or Equitable
Tolling of any Procedural or Provisional Violations.

III

TrarrATTSK, A DEFENDANT HAS A RIGHT TO FILE A PROCEDURALLY DEFAULTED
MOTION TO REINSTATE A DIRECT APPEAL, PURSUANT TO ROE v. FLORES,
120 S.Ct. 1029(2000), USING A 52255 PETITION, 'WITHOUT TRIGGERING
THE^JURISDICTIONALngEQUIREMENTS OF 52255th)

CONCLUSION

24

PROOF OF SERVICE

23
iii

TABLE OF AUTHORITIES

CASES:
Castellanos v. United States, 26 F.3d 717(7th Cir.1994)

Page1:1.
12

Calderon v. United States, 128 F.3d 128, 1288-89(9th Cir.1997)

n

Cannon v. Univ. of Chicago, 441 U.S. 677, 730-731(1979)

U

Carranza v. United States, 794 F.3d 237, 244(2d.Cir.2015)

8; IS; 16

Christeson v. Roper, 135 A.Ct. 891, 894(2015)

IB 22;23

Crouch v. Norris, 251 F.3d 720, 724(8th Cir.2001)

7

Davis v. Johnson, 158 F.3d 806, 811(5th Cir.1998)

m

Estelle v. Gamble, 429 U.S. 96, 106(1976)

4

Felker v. Turpin, 518 U.S. 615, 664(1996)

7

Gideon v. Wainwright, 372 U.S. 335, 344(1963)

19

Gonzalez v. Thaler, 563 U.S. 134, 141-143; 146(2012)

15; 1.6; 17.

Haines v. Kerner, 404 U.S. 519, 520-521(1972)

4

Hamer v. Neighborhood Hous Servs of Chi • ) 138 S.Ct 13, 17(2017)

MS

Harris v. Hutchinson, 209 F.3d 325, 329-330(4th Cir.2000)

IS,

Henderson v. Shinseki, 565 U.S. 428, 439(2001)

15

In Re Cain, 137 F.3d 234, 235-236(5th Cir.1998)

7

In Re Goddard, 170 F.3d 435, 437-438(4th Cir.1999)

1; 4; 9; 10; 11;
13; 13; 16; 17; 22;24

In Re Williams, 444 F.3d 223, 235(4th Cir.2006)

7

Irwin v. Dept, of Veteran Affairs, 498 U.S. 89, 95-96(1990)

IS

Lindh v. Murphy, 521 U.S. 320, 336(1997)

7

Holland v. Florida, 560 U.S 631, 649-654(2010)

1; 4; 14); 16; 20

Maples v. Thomas, 181 L.Ed 2d 8-7, 823-824; 829-830(2012)

19; 22;; 24

Mccoy v. Louisiana, 548 U.S.

, 138 S.Ct.

(2018)

19;22;23
Q,

Miller v. New Jersey State Dep't of Corrections, 145 F.3d 616
618(3d Cir.1998)

n

Powell v. Alabama, 287 U.S. 45, 68(1932)

12

Mcquiggins v. Perkins, 569 U.S. 383, 397-398(2013)

•'ll 11

iv

United States v. Bousley, 523 614, 626, 629, 118 S.Ct.1604(1998)

24

Rouse v. Lee, 314 F.3d 698, 712(4th 2002)

n

Sandvik v. United States, 177, F.3d 1269, 1271-1272(11th 1999)

IF;

Strickland v. Washington, 466 U.S.668, 687, 692(1984)

18921

Zipdsv..Transworld Airlines Inc • ) • 102 S.Ct:..-1127,■‘.1128-1229(1982)

IF

Vasquez v. Parrott, 318 F.3d 387, 389-390(2d Cir.2003)

7; 8;Ilf 136

Weaver v. Massachusetts, .198 L.Ed 2d 420,3 430^34(20 1 7)

8; 18 ;119;22;23

United States v. Barrett, 178 F.3d 34, 43(lst Cir.1999)

7

Roe v. Flores-Ortega, 528 U.S. 470, 477-479; 483; 489-491(2000)

i; 4; 5; 6; 8
11; 12; 13; 16;
18; 19;20£2L;2Z;23;24

United States v. Curbelo, 343 F.3d 273, 281(4th Cir.2013)

13; 14

United States v. Cronic, 466 U.S. 648, 649-654(1984).

18; 19

United States v..Peak, 992 F.2d 39, 42(4th Cir.1993)

8

United States v. Person,

436 Fed Appx. 278, 279(4th Cir,2011)

.11; 16

United States v. Surratt, 797 F.3d 240, 265(4th Cir.2015)

6

United States v. Winstock, 340 F.3d 200, 207(4th Cir. 2003)
United States v. Addonizio, 442 U.S.178, 184(1979)

7
22

STATUTES, RULES AND REGULATIONS
Fed. R. App. P. 4(b)

9

ABA Standard of Criminal Justice 21^2.2; 4-8.2(a); 21-3.2(b)(1)

20^;

18 U.S.C. §2

3

18 U.S.C. §924(c)

3

18 U.S.C. §924(d)

3

18 U.S.C. §1951

3

28 U.S.C. §2244(B)(3)(a)

4;6;7;9;10;ll;Sft

28 U.S.C. §1254(1)

1

28 U.S.C. §2253(c)(1(B)

6

28 U.S.C. §2254

6

28 U.S.C. §2255

5;6;7;8;9;10;16;17<

28 U.S.C. §2255(h)

4;5;6;7;8;9;10;
11; 13; 1®
v

APPENDIX TABLE OF CONTENTS

Fourth Circuit Order in USCA No. 19-7625, dated June 5,
2Q20, denying Pernell's Motion to Stay Mandate

la

Fourth Circuit Order in USCA No. i'19-7625, dated Mayc26|6?
2020, denying Pernell's Motion for Rehearing and Rehearing
En Banc

2a

Fourth Circuit Order in USCA No. 19-7625, dated March 10,
2020, denying Pernell's Motion for Certificate of
Appealability

3a

Judgement in Criminal Case No. 3:09-cr-00452-REP-DJN,
dated October 11, 2019, denying Pernell's Motion to
Reinstate a Direct Appeal

4a

.S •

X3E

PETITION FOR WRIT OF CERTIORARI:
Petitioner respectfully submitts this petition for a Writ of Certiorari
to review the judgement of the United States Court of Appeals for the Fourth
Circuit.
OPINION BELOW:
The Opinion of the United States Court of Appeals for the Fourth Circuit
is Non-Published, United States v. Robert Pernell, (No.19-7625)(4th Cir. 2020),
is attached in the Appendix at la- ^ ,3a

STATEMENT OF JURISDICTION:
Petition-Appelant, timely appealed from the district court's'Judgement
in a Civil Case to the United States Court of Appeals, for the Fourth Circuit.
On

D :cJuhev 5 , 202G;, the Court of Appeals for the Fourth Circuit issued a

Order,denying Pernell's Motion for Certificate of Appealability. This Court
has jurisdiction pursuant to Title 28 U.S.C. §1254(1). See Appendixes la-3a

1

CONSTITUTIONAL PROVISIONS INVOLVED

First Amendment of the United States Cons titution;
CONGRESS SHALL MAKE NO LAW RESPECTING AN ESTABLISHMENT OF RELIGION,
OR PROHIBITING THE FREE EXERCISE THEREOF; OR ABRIDGING THE FREEDOM
OF SPEECH, OR OF THE PRESS; OR THE RIGHT OF THE PEOPLE PEACEABLY
TO ASSEMBLE, AND TO PETITION THE GOVERNMENT FOR A REDRESjS: OF GREIVANCE.
Fifth Amendment of the United States Constitution:
NO PERSON 'SHALL BE HELD TO ANSWER FOR A CAPITAL, OR OTHERWISE INFAMOUS
CRIME, UNLESS ON A PRESENTMENT OR INDICTMENT OF A GRAND JURY, EXCEPT
IN CASES ARISING IN THE LAND OR NAVAL FORCES, OR IN.THE MILITIA,
WHEN IN ACTUAL SERVICE IN TIME OF WAR OR PUBLIC DANGER; NOR SHALL
ANY PERSON BE 'SUBJECT FOR THE SAME OFFENCE TO BE TWICE PUT IN JEOPARDY
OF LIFE OR LIMB; NOR SHALL BE COMPELLED IN ANY CRIMINAL CASE TO
BE A WITNESS AGAINST HIMSELF, NOR BE DEPRIVED OF LIFE, LIBERTY,
OR PROPERTY, WITHOUT DUE PROCESS OF LAW; NOR SHALL PRIVATE PROPERTY
BE TAKEN FOR PUBLIC USE, WITHOUT JUST COMPENSATION.
Fourteenth Amendment of the United |5|tates Constitution:
ALL PERSONS BORN OR NATURALIZED IN THE UNITED STATES, AND SUBJECT
TO THE JURISDICTION THEREOF, ARE CITIZENS OF THE UNITED STATES
AND OF THE STATE WHEREIN THEY RESIDE. NO STATE SHALL MAKE OR ENFORCE
ANY LAW WHICH SHALL ABRIDGE THE PRIVILEGES OR IMMUNITIES OF CITIZEN©:.
OF THE UNITED STATES; NOR SHALL ANY STATE DEPRIVE ANY PERSON OF
LIFE, LIBERTY, OR PROPERTY, WITHOUT DUE PROCESS OF LAW;! NOR DENY
TO ANY PERSON WITHIN ITS JURISDICTION THE EQUAL PROTECTION OF THE
LAW©.

2

STATEMENT OF THE CASE

A.

The Proceedings Below(In Relevant Part):
On December 15, 2009, a Grand Jury sitting in the United States District

Court for the Eastern District of Virginia, Richmond Division returned
a three (3) count indictment charging Pernell(ECF.No.1): Count 1 charged
Pernell, with Conspiracy to Interfere with Commerce by Threats and Violence,
in violation of 18 U.S.C. §1951, on or about May 15, 2009(id.); Count 2
charged Pernell with Attempted Interference With Commerce by Threats and
Violence, in violation of 18 U.S.C. § 1951 and §2, on or about May 15, 2009(id.);
Count 3

charged Pernell With Use/Carry of a Firearm During/In Relation

to a Crime of Violence, in violation of 18 U.S.C. §924(c), on or about
May 15, 2009(id.); The indictment also contained a Notice of Intent to
Seek Criminal Forfeiture, pursuant to 18 U.S.C. §924(d).
1.

Charged Offence Conduct

On May 15, 2009, in Chesterfield Virginia, ROBERT PERNELL, the petitionerappellant, and another unknown individual, forced their way into the residence
of Anwan Jones. While Jones and his girlfriend Keona Peoples, were entering
the residence, at 1453 Lockett Ridge Road, Chesterfield County Virginia(ECF.No.
19&bfpg.ID#1688]). Pernell and his alleged accomplice brandished weapons,
and a struggle ensued. Jones attempted to close the entrance door, but
could not, because it was being blocked by a barrel of a shotgun held by
Pernell or the other male suspect.(id.) Jones was eventually able to flee.
Pernell pursued Peoples to a back bedroom of the =residence. Peoples fired
a .45 caliber handgun at Pernell striking him one time in the left arm.(id.).
Pernell discharged the shotgun he had, and then fled the scene.(id.). A
search of the residence, by law enforcement located 116 grams of cocaine,
an undisclosed amount of illegal prescription pills and marijuana, along
with $125,000.00 dollars in cash(ECF.[pg.ID# 1214

]). Pernell was

originally arrested for attempted robbery in State Court on June 16, 2009(ECF.
No.L96-b [pg. ID//1688]), the other unknown individual was never charged or
indicted(id.). On August 22, 2014, Pernell plead guilty to one count of
violating 18 U.S.C. 924(c) Use/Carry of Firearm During/Relation to a Drug
Trafficking Offence, and was sentenced to 300 months for a Statutory violation
of 924(c) in a second offence(ECF.No.197[pg.ID#1573-1575]).
3

REASONS FOR GRANTING THE PETITION:

As a preliminary matter, Pernell respectfully requests that this Honorable
Court be mindful, that pro—se litigants' are entitled to the liberal construction
of their pleadings. Estelle v. Gamble, 429 D.S. 97, 106(1976); and Haines v.
Kerner, 404 U.S. 519, 520-521(1972):

I.

THE GOVERNING PROVISIONS IN THE FOURTH CIRCUIT COURT OF APPEALS
PRECEDENT CASE LAW, IN RE GODDARD, 170 F.3d U.S. 435, HAS UNLAWFULLY
fTRF.ATFT) AN ARBITRARY OR AMBIGUOUS APPLICATION OF 28 U.S'.C. 52255(h),
THAT IS VOID AND UNENFORCEABLE': l

(a)

II.

To Automatically Dismiss a Defaulted Petition for a Direct
Appeal, Pursuant to 52244(B)(3)(a) Based Solely on the
Governing Provisions in Goddard arbitrarily defining that
Petition as a Second or Successive §2255 Motion, Which
Erroneously Triggered the Jurisdictional Requirements
of 28 U.SiC. 52255(h);

(h)

In Light of a Conflict with the Supreme Court Decision
in Roe v. Flores, 120 S.CtU 1029, that Mandates the Automatic
Vacatur and Remand of a Petition to Reinstate a Direct
Appeal, When a Court Fails to Conduct a Circumstance-Specific
Inquiry Before Making any Ruling on the Petition; And

(c)

In Light of a Conflict1 with the Supreme Court Decision
in Holland v'. Florida, 130 S'.Ct. ,2549, that Mandates a
Circumstance—Specific Inquiry as to Whether Extraordinary
Circumstances Existed, in the Petition, in Order to Warrant
the Waiver, Forfeiture, or Equitable Tolling of any Procedural
or Provisional Violations.

BEngnSBy a DEFENDANT HAS A RIGHT TO FILE A PROCEDURALLY DEFAULTED
MOTION TO REINSTATE A DIRECT APPEAL, PURSUANT TO ROE v. FLORES,
120 S.Ct. 1029(2000), USING A §2255 -PETITION, WITHOUT TRIGGERING
THE JURISDICTIONAL REQUIREMENTS OF 52255(h).

4

(A)

Relevant Appellate Proceedings at Issue1.'.
On November 17, 2016, the district court denied Pernell's §2255 motion,

challenging his conviction and sentence(ECF.No.132).
On April 17, 2019, Pernell filed a Motion to Reinstate a Procedurally
Defaulted Direct Appeal, using a'numerically second §2255 petition, pursuant
to Roe v. Flores, 528 U.S. 470(ECF.Nos.196-198).
On October 11, 2019, the district court dismissed Pernell's petition,
for Reinstatement of a Direct Appeal, on jurisdictional grounds, pursuant
to §2255(h), without conducting a circumstantial-specific reasonableness
inquiry, pursuant to Roe v. Flores, 528 U.S. at 477-478(ECF.Nd.l99). See
Appendix 44a
The district court found: "Pernell contends that 'his new proposed
§2255 motion, at issue here, to reinstate direct appeal should
not be misconstrued or considered a second or successive §2255
under Section §2255(h), as 'it seeks to only reinstate his direct
appeal rights, and therefore does not challenge the legality
of the sentence imposed. I I It (ECF.No.199[pg.ID#1713]).
The district court determined based on its findings that: "Pernell
fails to identify a procedural vehicle that would allow this
Court to provide him the relief he seeks, that is, to reopen
his appeal. Thus, the MOTION FOR REINSTATEMENT OF'DIRECT APPEAL(ECF.
No.196), and MOTION TO EXERCISE INHERENT EQUITABLE POWERS TO
GRANT SUBJECT MATTER JURISDICTION(ECF.No.197) are denied." Id. at 1713-14.
On December 5, 2019, Pernell filed a Motion for Certificate of
Appealability(Appeal No.19-7625), to the Fourth Circuit Court of Appeals.
On March 10, 2020, the Fourth Circuit Court of Appeals, affirmed the
district court's Opinion and denied Pernell's Motion for a C.O.A. as unnecessary.
See Appendix
On

May 4, 2020, Pernell filed a Motion for Rehearing and Rehearing

En Banc(19-7625). On May 26, 2020, the Fourth Circuit Court of Appeals
again affirmed the district court's Opinion. Due .to "No judge requested
a poll under Fed. R. App. P.35 on the petition". See Appendix 2a :

5

The Fourth Circuit Court Appeals, on March 10, 2020, in a Per
Curiam decision on Pernell's Motion for C.O. A. held: " We have
reviewed the record and find no reversible error. Accordingly,
we affirm for the reasons stated by the district court. See
United States v. Pernell, No.3:09-cr-00452-REF^DJN(E.D. Va.
Oct. 11, 2019)....and deny a certificate of appealability as
unnecessary, See 28 U.S.C. §2253(c)(1)(B)(2018); Harbison
v. Bell, 556 U.S. 180, 183, (2009).

(B)

-Identification of a Proper Procedural Vehicle.
In Roe v. Flores, the Supreme Court, clearly reviewed Flores-Ortega's

filings pursuant to a 28 U.S.C. §2254 petition. See 528 U.S. 470 at 474.
Accordingly, a §2254 is a federal petition, seeking relief for prisoners
in State Custody. See 28 U.S.C. §2254.
The equivalent of a §2254 petition, for prisoners seeking relief,
in federal Custody, is a 28 U.S.C. §2255 petition. United States v. Surratt,
797 F.3d 240, 265(4th cir.2015)(§2254 applies with equal force to identical
language in a §2255).
Accordingly, a §2255 petition is clearly aliproper vehicle to address
a procedurally defaulted Motion to Reinstate a Direct Appeal, pursuant to Roe v.
i-Elores,, 528oU.S'.,47CR... BU the 'Fourth Circuit', In Re' Goddard, 170 'F.3d 435, governs 'such motions.
However, what is not clear, is whether a procedurally defaulted Motion
to Reinstate a Direct Appeal, actually constitutes a second or successive
§2255 petition as intended by Congress in the 1996 A.E.D.Pi.A. Statute of
Limitations, pursuant to §2255(h). In those unusual occass.ions.,; when a Motion
to Reinstate Appeal is numerically filed second to a previously unsuccessful
§2255 petition challenging a conviction or sentence, pursuant to §2255(a).fetch, currently,
mke^ATtaTflHrtrnf

v*
(CO

Frinrrfliratttlspprecedent!: case law on the issue: In Re Goddard, at 1438.

41
§22SSXh)
§2255(h) states: "A second or successive motion must be certified

as provided in section §2244 by a panel of the appropriate court of appeals
to contain- (1) newly discovered evidence.... or (2) a new rule of constitutional
law, made retroactive to cases on collateral review by the Supreme Court,
that was previously unavailable".

6

Judicial Interpretation of a Second or Successive §2255 Petition.

(D)

In Congress's 1996 A.E.D.P.A Statute of limitation Policy. Congress mandated,
under Article 1 of its Policy-Making Authority, that a movant must obtain
authorization from the Court of Appeals before filing a second or successive
§2255 petition, in the district court, See §2255(h) and §2244(B)(3)(a).
However, several of the Court's of Appeals, uniformally agreed that Congress
never actually defined what the requirements were for a §2255 petition to
be considered a second or successive petition, pursuant to Section §2255(h).
But, those same Court's of Appeals, also "rejected the notion of the literal
reading of the phrase". Vasquez v. Parrott, 318 F.3d 387, 389—390(2d Cir.2003);
United States v. Barrett, 178 F.3d 34, 43(lst Cir. 1999); In Re Cain, 137
F.3d 234, 235-236(5th Cir. 1998); In Re Williams, 444 F.3d 223, 235(4th Cir.
2006).
The Supreme Court interpretated Congress's intent for implementing Section
§2255(h), where Congress was silent or ambiguous as to what constituted an
actual second or successive §2255 petition. In Felker v. Turpin, 518 U.S.
615, 664, 116 S.Ct. 2333(1996), the Supreme Court noted: "[t]he new restrictions
on successive petitions constitute a modified res judicata rule, a restraint
on what is called a habeas practice 'abuse of writ'. However, the Supreme
Court a year later also found: "despite the Acts clear goals, in a world of
silk purses and pigs' ears , the Act is not a silk purse in the art of statutory
drafting". Lindh v. Murphy, 521 U.S. 320, 336 117 S.Ct.2059, 138 L.Ed 2d 481(1997).
But, the Court came short of actually defining what an actual second or successive
§2255 was, in order to trigger the jurisdictional requirements of §2255(h).
Since those Supreme Court decisions, several Court's of Appeals agree
the purpose of Congress's "habeas restrictions [was] primarily to preclude
prisoners from repeatedly attacking the validity of their convictions and
sentences" on collateral feview. Crouch v. Norris, 251 F.3d 720, 724(8th Cir.
2001); In Re Cain, 137 F.3d 234, 235(5th Cir. 1998); Zayas v. I.N.S • ) 311
F.3d 247, 256(3rd Cir.2003); United States v. Winestock, 340 F.3d 200, 207(4th
Cir. 2003). Even still, recently, the Supreme Court held: "[W]hen Congress codified
new rules[A.E.D.P^A] governing this previously judicially managed area of law it
did so without losing sight of the fact that the writ of habeas, plays a vital
role in protecting constitutional rights". Mcquiggins v.Perkins,’ 569 U.S. 383 at
397-398(2013).
7

Application of §2255(h) in The Instant Case.

1,

In the instant case, Pemell argues a procedurally defaulted Motion for
Reinstatement of a Direct Appeal, pursuant to Roe v. Flores, 120 S.Ct. 1029(2000),
does not collaterally attack the validity of Pernell's conviction or sentence,
and therefore does not trigger the jurisdictional requirements of §2255(h).
Pernell, contends any other provisional violations, that may be alleged
by the Fourth Circuit, are subject to waiver, forfeiture, or equtiable tolling.
Therefore, are insufficient to warrant the automatic dismissal of Pernell's
petition, without first conducting a circumstance-specific inquiry.of that petition
as mandated by the Supreme Court in Roe, at 478(the "Court of Appeals failed
to engage in the circumstance-specific reasonableness inquiry required by
Strickland, and that alone mandates vacatur and remand").
In particular in Pernell's case, he

did not per-say rely on a "ineffective

assistance of counsel" claim. Instead, Pernell's Motion to Reinstate a Direct
Appeal relied squarely on the "denial of the entire judicial proceedings itself"
145 .Ed 2d 985, 991-992, 120 S.Ct. 1029, Roe v. Flores.(ECF.No.196[pg.Id#1516]).
Accordingly, in Roe, the denial of the appellate proceedings altogether to file
a

direct appeal, is a structural error, Roe, 528 U.S. at 483, subject to a

"presumption of prejudice". See also Weaver v. Massachusetts, 137 S.Ct. at
1907-1908(a structural error is an error that affects the framework within
which the trial proceeds, rather than being simply an error in the trial process
itself)

• Vi

Pernell, contends when the Fourth Circuit vacates its underlying judgement
in a conviction and."reenters that same judgement, unchanged, to permit the
[direct] appeal period to run anew", pursuant to Fed. R. App.4(b). United
States

v. Peak, 992 F.2d 39, 42(4th Cir.1993). It does not require the Fourth

Circuit to make any collateral judgement, on the actual validity of a defendant's
conviction or sentence, in order to grant relief:
" a second [§2255] motion to reinstate direct appeal does not
amount to a true collateral attack on a conviction or sentence
pursuant to §2255(h)...[as] it seeks only to reinstate..direct-appeal
rights, and therefore does not challenge the legality of the sentence
imposed." Carranza v. United States, 794 F.3d 237, 244(2d Cir.2015);
Therefore, enforcement of §2255(h), by the Fourth Circuit, based solely on
the sequential numeric filing order of Pernell's petition to reinstate a direct
appeal, must be considered arbitrary or ambiguous to the intended jurisdictional
restraints by Congress. Vasquez, 318 F.3d at 389-90(rejected literal reading of phrase second
or successive).

8

OEKCEXTDAL BACKGROUND IN GODDARD DECISION:

1.

Goddard's Lawyer Failure to File a Direct Appeal

Mr. Goddard's first lawyer, failed to file a motion for a direct appeal.
Mr. Goddard, later became aware of his lawyer's failure and filed his first
§2255 motion, to have his judgement vacated and reentered pursuant to Fed. R.
App. P. 4(b). The court granted Mr. Goddard'srmotion, and gave him an opportunity
to file a direct appeal, with new counsel. 170 F.3d U.S. 435 at 437.
However, Mr Goddard's direct appeal was unsuccessful. Mr. Goddard then
sought to mount a substantive collateral attack on his actual conviction arc
sentence, through a second §2255 motion on the proceedings that led to Mts Goddard's r
sentence. Id.
2.

Goddard's Circumstances Created a Substantial Question of Law

Mr. Goddard's second §2255 motion was denied, on jurisdictional grounds,
as:a isetond or successive §2255 petition pursuant to 28 U.S.C. §2255(h).ahd §2244(B)
(3)(a). Mr. Goddard filed an appeal to the Fourth Circuit Court of Appeals.
Mr. Goddard's circumstances presented a substantive question of law. As
to whether Mr. Goddard's second §2255 petition:filed to collaterally attack
his sentence. Actually, constituted a second or successive §2255 petition in
violation of 28 U.S.C. §2255(h); Title 28 U.S.C. §2255(h), mandated Mr. Goddard
must be granted authorization to file a second or successive §2255 petition,
from the Fourth Circuit Court of Appeals. If Mr. Goddard failed to seek such
authorization, his second §2255 would automatically be dismissed on jurisdictional
grounds, pursuant to Title 28 U.S.C. §2244(B)(3)(a). 170 F.3d U.S. 435 at 437.
In addressing Mr. Goddard's substantial question of law. The Fourth Circuit
Court of Appeals, found Mr. Goddard's second §2255 motion, did not trigger'the
jurisdictional requirements of 28 U.S.C. §2255(h) or §2244(B)(3)(a). Id.

9

3i

Provisional Requirements Defining a Second or Successive §2255

The Fourth Circuit Court of Appeals created specific provisional requirements,
in. order to define a second or successive §2255 petition, and relying on
those provisions determined Mr. Goddard's second §2255 petition was not a
second or successive p&fifiih&y pursnantdtd §^255£^^$sas intended by Congress.
The Fourth Circuit held:
(i)

4

" [W]hen a §2255 motion successfully reinstates the defendant's right
the counter
to [a] direct appeal of his conviction and sentence
of collateral attacks pursued [is] reset to zero, such that a later
§2255 motion itself is not necessarily second or successive." 170 F.3d
435 at 438.

(ii) " [T]he only effective remedy for a prisoner deprived of the right :
to [a] direct appeal is„two. fold?,allpw_him to use,a J2255 .motion
to reinstate the' appeal process EhrbugbnreenEry“ 6f “judgement'/and''
allowzhim to raise collateral claims, in a subsequent §2255 motion
filed after the direct appeal is concluded. That can only be accom­
plished if the §2255 motion starts anew when judgement is reentered
to allow an appeal." 170 F.3d 435 at 438.
(iii)/"-.[I]ntitial habeas action [§2255] seeking reinstatement of [direct]
appeal rights may, but is not required to raise other claims concerning
the conviction or sentence." 170 F.3d 435 at 437.

4.

Fundamental Basis of Goddard's Ruling and Provisions

The fundamental basis of the Fourth Circuit's ruling that Mr. Goddard's
numerical second §2255 petition was not actually a second or successive §2255
motion, triggeningothe jurisdictional requirements of 28 U.S.C. §2255(h)
and 28 U.S.C. §2244(B)(3)(a). Primarily was because "Goddard used his first
§2255 motion solely to reinstate his right to [a] direct appeal, [and] that
motion does not count against him." 170 F.3d 435 at 437.
The fundamental basis of the Fourth Circuit's provisional requirements
authorizing a defendant, was not required to raise other claims concerning
his conviction or sentence. While seeking to reinstate the defendant's" right
to a directnappeal in a §2255.

Primarily was based on the Fourth Circuit's

legal interpretation that "the prisoner in [his] first §2255 motion could
join his [direct] appeal reinstatement claim with other attacks on his conviction
and sentence, including those that could have been raised on direct appeal."
o
10

170 F.3d 435 at 437[Lexis 8]. However, to so would create "real disadvantages.. •
..forc[ing] [the] prisoner, without the assistance of counsel to make substantive
objections to his conviction and sentence that his lawyer would have made
for him on direct appeal." Id. Morever, those same "objections would be subjected
to more stringent standards of review that apply to collateral proceedings. [And],
[i]f the prisoner's substantive challenges were [actually] denied on the merits,
they could not be reasserted even if he was permitted a direct appeal.". Id.
THRESHOLD ISSUE':' .
Pernell, contends the Fourth Circuit wrongfully established an erroneous
factual or legal premise in its conclusion in Goddard, at 438. Requiring a Motion
to Reinstate a Direct Appeal, using a §2255 petition, must be filed in an initial §2255
and concluded before the filing of a subsequent §2255 collaterally attacking the
conviction or sentence. In order to not trigger the judicial requirements in 28
U.S.C. §2255(h).
Pernell, argues the Fourth Circuit's governing provisional requirements, in
Goddard, at 437-438, are not jurisdictional in nature. But, instead are better understood
as a "judicial preference" or a "mandatory-claim processing rule", that are subject
to waiver, forfeiture, or equitable tolling. Likewise, even [the] AEDPA Statute of
Limitations?are subject to equitable tolling...because equitable tolling "can be seen
as a reasonable assumption of genuine legislative intent". Mcquiggins, 569 U.S at 398[n.].
Therefore, the Fourth Circuit's governing provisions, in Goddard, alone are
insufficient to automatically trigger the jurisdictional requirements of 28 U.S.C.
§2255(h). Making such provisions void and unenforceable, to warrant the automatic dismissal of
a motion to reinstate a direct appeal, on jurisdictional grounds, pursuant to
i

28 U.S.C. §2244(B)(3)(a). Consequently; due to the arbitrary or ambiguous nature of
. To

the Goddard provisions; ;to implicitly or. explicitly /define ■ the;)requiremenits,i:forl.?.:T;vai:ag
a §2255 motion, as a second or successive §2255 petition, based solely on the numeric
or sequential filing of the §2255?. Instead 7of.being.based oh the actua 1 ■ content dii the §2255.
In doing so, the Fourth Circuit's governing provisions, are arbitrarily triggering the
jurisdictional requirements of §2255(h), in conflict with the Supreme Court's
precedent case law to reinstate a direct appeal, Roe v. Flores, 528 U.S. 470 at 477-471
478(courts must conduct a circumstance-specific inquiry of a motion to reinstate a
direct appeal, before making any ruling to grant, deny, or dismiss the petition). See
. also Vasquez, 7318 F.3d at3389-90 (appeal Court's reject literal reading of phrase second or successive
by Congress);cf Person, 436 Fed Appx. 278, 279(4th Cir.2011).
li

In the instant case, the Fourth Circuit's failure to conduct a
circumstance-specific inquiry of Pernell's Motion to Reinstate a Direct Appeal,
as mandated by the law, in Roe v. Flores, at 477-478, warranted "the automatic
- - ... ^
vacatur and remand"'of his petition. Id. 1':..
u:.
The Fourth Circuit's failure to vacate and remand Pernell's petition,
as mandated by law in Roe v. Flores, at 478, violated Pernell's constitutional
rights to Equal Protection of the Law, and thenright.inot-'ta: bedeprived-.. of - therDue Process
of the Law when facing a crime. See §§V arid XIV Amendments of the Constitution
of the United States of America.
Pernell, contends according to the First Amendment of the Constitution.
He had a lawful right to petition the government to redress his grievance
of being "deprived of the appellate proceedings to file a direct appeal altogether' .
(ECF.No.196[pg.ID#1516]). Pernell further contends, that the argument he wanted
to present to reinstate his direct appeal, did not satisfy.the statutory criteria
for a repetitious collateral attack. Although, Pernell did do one collateral attack,
in. November 2015(ECF.No. 152) , making his aaurtreait &2<26&::" s&rimdi" Ha 'a d.ictfcldnarysense . fernell's deprivation of the appellate proceedings, caused by the constructive
deprivation of counsel, during that time, by Pernell's lawyer, (unbeknownst to Pernell);;
need not demonstrate that there was any legal flaw in his conviction or sentence; as
"all he must show is that his lawyer left him in the lurch. ..Whether the conviction
or sentence is valid will be determined later, with the assistance of counsel". See
Castellanos v. United States, 26 F.3d 717 (7th Cir.1994). However, that would onlf be important
if appellate approval was essential to authorize the review of Pernell's Motion to
Reinstate his Direct Appeal. Pernell argues, it is not, while the Fourth Circuit
argues that it is. Requiring the SupremejCourt to provide guidance and correction,
on the matter. In order to maintain the appearance of justice, integrity, and the.
fairness of the courts.
To support Pernell's claims, he poses three'questions for this Honorable
Court to consider: (1)

:May a violation that was presumptively prejudicial against

a defendant, create extraordinary circumstances, beyond his control, to prevent or
delay MmcfrcmsmeetiHgithe ^provisional requirements in Goddard, at 437-438. In order to
reinstate a procedurally defaulted direct appeal?; If so, (2)

Does sufficient

evidence supporting a defendant was actually presumptively prejudiced by the
violation. Warrant the provisional requirements in Goddard, at 437-38, to be
waived, forfeited or equitably tolled?^; If so, (3) Does the Goddard, provisions
conflict with the Supreme Court, in Roe V. Flores, at 477-478, when the Fourth Circuit
fails to conduct a circumstance—specific? inquiry before dismissing the petition?
12

II.

A DEFENDANT HAS A RIGHT TO FILE A PROCEDURALLY DEFAULTED MOTION
TO REINSTATE A DIRECT APPEAL, PURSUANT TO ROE v.FLORES, 120 S.Ct.
1029(2000), USING A 52255 PETITION, WITHOUT TRIGGERING THE
JURISDICTIONAL REQUIREMENTS OF 52255(h).
Pernell argpes, the Fourth Circuit's failure to conduct a circumstance-

specific inquiry, before it dismisses a petition to reinstate a direct
appeal, as mandated by the Supreme Court precedent law in Roe v. Flores,
528 U.S. 470 at 477-478(Court of Appeals failed to engage in the circumstance
specific reasonableness inquiry required by Strickland, and that alone mandates
vacatur and remand).

Constitutes, a Constitutional violation of a defendant's

Fifth and Fourteenth Amendment Rights, to not he deprived of the Due Process
of the Law when facing a crime, and to the Equal Protection of the Law.
See §§V and XIV Amendments.
Pernell contends, like all citizens, he clearly has a First Amendment
Right to "petition the government for redress of a grievance". See §1 Amendment.
On April 17, 2019, Pernell grieved to the Fourth Circuit District Court,
he had unlawfully been "deprive[d] of the appellate proceedings to file a
direct appeal altogether'(ECF.No.196[pg.ID#1516-1519]). Which, had been erroneously
caused by the "unquantifiable consequences from an actual or constructive
denial of counsel, during the critical stage of filing a direct appeal"(ECF.
No.196[pg.ID#1539; 1550-1551; 1552-1559]), that was previously unknown to Pernell.
The erroneous deprivation of the appellate proceedings and the deprivation
of counsel are both presumptively prejudicial structural errors. Roe, 528 U.S. at
483 (denial of counsel or the denial of judicial proceedings itself demand a presumption of
prejudice) ;cf Powell v. Alabama, 77 L.Ed 158, 170, 68 S.Ct(1932)(the conception of
Due Process of Law makes it clear that the right to the aid of counsel is fundamental);
United States v. Curbelo, 343 F.3d 273, 281(4th Cir.2013)(deprivation of the right
to counsel like other structural errors has reprecussions that are necessarily
unquantifiable and indeterminate).
(1)

Exception from Jurisdictional Requirements of 52255(h).

Pernell argues, a Motion to Reinstate a Direct Appeal, is simply a request for
a waiver, forfeiture, or equitable tolling, to allow a defendant an opportunity to a "judicial
proceedings" he had failed to timely file notice to receive. Pernell contends,
such a request does not and should not trigger any jurisdictional

13.

requirements pursuant to §2255(h). Because, the reinstatement of

deprived

judicial proceedings, a defendant had a statutory right to have, is not
by definition a traditional "collateral attack on a conviction or sentence"
repeatedly. Such a distinction makes the numerical filing of a motion to
reinstate an actual judicial proceedings,, arbitrary. In order to trigger
the jurisdictional requirements of 28 U.S.C. §2255(h)(authorization for
filing a second or successive §2255 petition, from a Court of Appeals).
Therefore, evidence of the Presumption of Prejudice in a defendant's
particular circumstances, creates an "unusual [case]"...because 'the adversary
process itself' has been rendered 'presumptively unreliable i

i ii

. Roe, 528

U.S. 470 at 483. Where "structural errors has repercussions that are
necessarily unquantifiable and indeterminate". Curbelo, 343 F.3d 273 at
281(4th Cir.2013). Pernell contends, such a case clearly would constitute
"extraordinary circumstances, beyond a defendant's control and ability
to exercise diligence" under certain conditions. Which, in light of those
conditions, would warrant the waiver, forfeiture, or equitable tolling
of any provisional or procedural requirements. Preventing, a defendant
from having a deprived judicial proceedings reinstated for good cause.
Holland v, Florida, 569 U.S. 631, 649-653, 177 L.Ed 2d 130 S.Ct. 2549, 2559-60(2010).
V
In the instant case, before this Honorable Supreme Court, the Fourth
Circuit's failure to conduct any type of circumstance-specific reasonable
inquiry, absolves this Court from determining whether Pernell's evidence
was sufficient to warrant a waiver, forfeiture, or equitable tolling. Instead,
the Fourth Circuit's failure, requires this Court to determine whether that
failure, unjustifiably violated Pernell's Constitutional rights to Equal
Protection of the Law, and to the Due Process of the Law, pursuant to Roe
v. Flores, 528 U.S. 470 at 478("The Court of Appeals failed to engage in
the circumstance-specific reasonableness inquiry required by Strickland,
and that alone mandates vacatur and remand."). In doing so, this Honorable
Court, would also be correcting an erroneous factual or legal premise in
the Fourth Circuit, that is arbitrarily or ambiguously denying, other defendant's, like Pernell,
a lawful opportunity to present a grievance to the government to reinstate
a judicial proceedings. Due £o i the Fourth Circuit's arbitrary enforcement
of its governing provisional requirements in its precedent case law In
Re Goddard, 170 F.3d 435, to erroneously trigger the jurisdictional requirements
of 28 U.SvC. §2255(h), in a manner that is void and unenforceable. Which
requires the Supreme:Court's guidance and correction.

lift*, ifk

(_2)

Insufficient Jurisdictional Authorization

Pernell contends, the Fourth Circuit's provisions in Goddard, 170
F.3d at 437-438, as aforementioned. Do not "clearly state" any "jurisdictional
Legislation", Gonzalez v. Thaler, 565 U.S. 134, 141-142, 132 S.Ct. 641(2012):
" A rule is jurisdictional '[i]f the Legislature clearly states
that a threshold limitation on a statutes scope shall count as
jurisdictional. i ii Id.

Therefore, the'mandated provisions in the Fourth-Circuit Vs In Re:
i.-

^

Goddard, can not-be considered sufficient to trigger a "jurisdictional requirement.
Particularly, given the focus of the provisions being on what is "better
understood.as..[a]... mandatory-claim processing rule," Hamer v. Neighborhood
Hous. Servs. of Chi • ) 138 S.Ct. 13, 17, 199 L.Ed 2d 249(2017), Or understood,
as a "judicial preference....derive[d] from concerns over judicial economy."
Carranza v. United States, 794 F.3d 237, 243(2d Cir.201-5):
" [w]hile we generally prefer that direct appeals conclude before
§2255 proceedings begin, this preference is not jurisdictional
and derives from concern over judicial economy." Id.
Pernell, argues in the instant case, whether it is concluded that
the Fourth Circuit's provisions in Goddard, are a mandatory-claim processing
rule, or a judicial preference. Those provisions still "are not jurisdictional".
Thaler, 565 U.S.at 141-143. Nomatter, how emphatically, the Fourth Circuit
may assert "its mandatory prescriptions are jurisdictional". Henderson
v. Shinseki, 565 U.S. 428, 439 131 S.Ct. 1197(2001).
Pernell, concedes "if properly invoked" a judicial preference or
a mandatory-claim processing rule "must be enforced". Hamer, 138 S.Ct.
at 17. But, Pernell contends, such provisions are "subject to waiver or
forfeiture". Id.
Therefore, the implicit or explicit existence of emphatic assertions,
in the provisions of Goddard, mandating its prescriptions are jurisdictional.
Does "not change the non-jurisdictional character of [the] provisions".
Thaler, 565 U.S. at 141-143; 146. When those provisions, are actually subject
to waiver jor forfeiture, and are"not clearly stated .as a Legislative threshold limitation
to be counted as jurisdictional. Hamer, 138 S.Ct. at 17.
15

(3)

Judicial Provisions May not Substitute the Views
of Congress as a Remedy for Enforcement of S2255(h)

Pemell argues, the Fourth Circuit's reliance of judicial preferenceand/or
mandatory-claim processing rules, pursuant to In re Goddard, 170 F.3d at 437-438,
can not substitute the desires of Congress. As a remedy to the enforcement error
in the 1996 A.E.D.P.A Statute of Limitations Policy by Congress. When Congress
either was silent or ambiguous, as to what the requirements are to define a §2255
petition:,, as a "second or successive motion", pursuant to §2255(h). Vasquez v.
Parrott

318 F.3d 387, 389-390(2d Cir.2003); cf United States v. Person, 436

Fed Appx. 278, 279(Lexis 2](4th Cir.2011):
"It is well settled law that not every numerically second[§2255 motion]
is a second or successive [motion] within the meaning of the [Anti-Terrorism
and Effective Death Penalty Act of 1996]V Id.
Perneilacdntends, any-violation Lin his -motion .to. Reinstate .a Direct -Appeal,
to the provisional requirements mandated in Goddard, 'at 437-438, can only be considered
to be a "defect in authorization" of the Fourth Circuits ability to grant relief.
However, "aedefective ^authorization] is not [jurisdictionally] equilivalent
to the lack of any [authorization]". Thaler, 565 U.S. at 143.
Likewise, a defective authorization issue, can not be superimposed into,
or substitute the jurisdictional requirements established by Congress, pursuant
to 52255(h), To do so, would be "dispacthing Congress's

Article 1 Policy-Making

Authority to the Third Branch of Government". Cannon v. Univ. of Chicago, 441 U.S.
672, 730-731, 99 S.Ct. 1964(1979). Creating an arbitrary remedy to: the 'enfoYcement
error, by Congress, to clearly define a Bsecond or successive" §2255 petition. While also
simultaneously running afoul with the Supreme Court case law, in Roe v. Flores, at
477-478, mandating all "Court of Appeals to engage in circumstance-specific reasonableness
inquirfies]" before dismissing a motion to reinstate a direct appeal.Ild. Which, the
Fourth Circuit has no jurisdictional authorization to ignore:
" a second [§2255] motion to reinstate direct appeal does not amount to a
true collateral attack on a conviction or sentence pursuant to §2255(1#... [as] it
seeks only to reinstate
• direct-appeal rights, and therefore does not challenge the
legality of the sentence imposed." Carranza v. United States, 794 F.3d 237 , 244(2d Cir.2015);
Based on the erroneous application of an "inflexible rule" in Goddard. Which, implicitly or explicitly
triggers the automatic dismissal of a defaulted direct appeal right, that is "not set forth" in
the "AEDPA Statute of Limitations." Holland v. Florida, 560 U.S. 631, 649-650(2010)(emphasizing the
need for flexibility to avoid mechancial rules and standards that are too rigid) .

16

(4)

Defective Authorization Subject to Equitable Tolling

Pernell, argues the governing provisional requirements in the Fourth
Circuit's In Re Goddard, 170’F.3d at 437-438, may support his filing for a-belated direct appeal, has a "defective authorization issue". But, because
a "defective [authorization] is not [jurisdictionally] equilvalant to the
lack of any [authorization]". Thaler, 565, U.S. at 143. Parnell contends
the Fourth Circuit's provisional requirements:
"[T]he only effective remedy for a prisoner deprived of the right
to [a] direct appeal is two fold" allow him to use a §2255 motion
to reinstate the [direct] appeal process through reentry of judgement
and allow him to raise collateral claims, in a subsequent §2255
motion filed after the direct appeal is concluded." 170 F.3d 435 at 438;
like

"a statute of limitations, is subject to waiver, estoppel and equitable

tolling. The structure of Title VII, the congressional policy underlying it,
and the reasons of our cases all lead to this conclusion." Zipes v. Transworld
Airlines Inc, 455 U.S. 385, 71 L.Ed 234 102 S.Ct. 1127(1982);cf Miller v.
New Jersey State Dep't of Corrections, 145 F.3d 616, 618(3rd Cir.1998);
Harris v. Hutchinson, 209 F.3d 325, 329(4th Cir.2000);
A presumption that a statute of limitations may be equitably tolled
"applies with equal force to both statutes [§2255 and §2244]" Irwin v. Dept
of Veteran Affairs, 498 U.S. 89, 95-96, 111 S.Ct. 453, 457 112 L.Ed 2d 435(1990).
§2244 and §2255 time limitsoare "called a period of limitations" and
thus "does not imply a jurisdictional boundary" Davis v. Johnson, 158 F.3d
806, 811(5th Cir. 1998);cf Calderon v. United States, 128 F.3d 1283, 12881289(9th Cir.1997)(the time "bar...can be tolled if extraordinary circumstances
beyond a prisoners control make it impossible to file a petition on time");
see also Irwin at 96(Equitable tolling is appropriate when a movant "untimely
files, because of extraordinary circumstances that are beyond his control
and unavoidable even with diligence"). Therefore, limitation provisions
do "not speak in jurisdictional terms or refer in any way to the jurisdiction
of the district courts". Zipes, at 1288-89; Sandvik v. United States, 177
F.3d 1269, 1271-1272(11th Cir.1999); Rouse v. Lee, 314 F.3d 698, 712(4th
Cir.2002); Harris v. Hutchinson, 209 F.3d 325, 330(4th Cir.2000)(quoting
Zipes v. Transworld, 71 L.Ed 234 102 S.Ct 1127, 1228-1289),

i-i

17

(5)

Structural Errors Warrant Equitable Tolling

In Roe v. Flores, the Supreme Court mandated courts engage in a "circumstance
specific reasonableness inquiry, <as mandated in Strickland" 528 U.S. 470iat477-478.
Accordingly, :.±n Strickland, the Supreme Court found in certain limited contexts,
"prejudiced is presumed". 466 U.S. at 692. The same Strickland Court also
found "contructive denial of counsel is legally presumed to result in prejudice
and thus to constitute a structural error". Id. In such cases the Strickland
Court mandated the circumstance-specific reasonableness inquiry would be
pursuant to United States v. Cronic, 466 U.S. 648, 649-650, 80 L.Ed 2d 657,
104 S.Ct. 2039(1984). See Roe v. Flores, 528 U.S. 470 at 483("the presumption
that counsel's assistance is essential requires us to conclude...a trial
is unfair if the accused is denied counsel at a critical stage."(quoting
Cronic, supra at 659, 80 LEd 2d 657, 104 S.Ct.2039).
In the instant case, without a valid jurisdictional bar or required
jurisdictional authorization, the Fourth Circuit was required to conduct
a

circumstance-specific inquiry into Pernell's allegations. Where the facts in

Pernell's allegations relied on a presumptively prejudicial denial of the
appellate proceedings to file a direct appeal altogether(ECF.No.196[pg.
ID#1516- 1519 ]). Which, Pernell alleged was caused by the constructive
denial of counsel during the critical stage of filing a direct appeal(ECF.
No. 196[pg.ID# 1539}; 51589-1594'!).. Due to Pernell's counsel, unbeknownst to him, being
-ijivji unable to make reasonable objections to undisclosed structural errors
during Pernell's trial proceedings, or -to preserve the issue of the structural
errors for review on direct appeal,. Ifecause, it would have required counsel
to expose and denigrate his own undisclosed egregious misconduct, that had
caused the undisclosed structural error to occur.(ECF.No.196[pg.ID#1517-1521]).
Which, would have also been damaging to counsel livelihood and reputation
to pursue.or provide legal advisement on behalf of Pernell(ECF.No.196[pg.ID#1539]).
In recent years, the Supreme Court has found counsel's inability to
make reasonable objections, that would be damaging to his or her's livelihood
or reputation, constituted an actual or constructive denial of counsel to
their client. See Christeson v. Roper, 135 S.Ct. 891, 894, 190 L.Ed 2d L.EdHR2-4
(2015)("counsel cannot be expected to make reasonably strong arguments on
behalf of his clients that would also be damaging to his own livelihood
and reputation); Weaver v. Massachusetts, 137 S.Ct, 1899, 1907 198 L.Ed

&

18

420, 437(2017)( "any structural error warrants 'automaticereversal' on direct
appeal without regard to [its]effect on the outcome of a trial"); Mccoy
v. Louisiana, 584 U.S.

, 138 S.Ct.

, 200 L.ed 2d 821, 2018 U.S. LEXIS

2802(2018)( "an error may be ranked structural...if the right at issue is
not designed to protect the defendant from erroneous conviction, but instead
protects some other interests"(quoting Weaver v. Massachusetts, 137 S.Ct.
1899, 198 L.Ed 2d 420).
The Mccoy and the Weaver, Court both found the fundamental legal principle
that a defendant must be allowed to make his own choices about the proper
way te protect his own liberty. Constituted a "protect[mon] [of] some other
interests0. Id.
In Roe v. Flores, 528 U.S. at 483, the Supreme Court clearly held:
" an actual or constructive denial of counsel • • • makes the adversary process
itself presumptively unreliable". Likewise, the Cronic Court found the core
purpose of the counsel guarantee, was to assure "assistance" at trial when
the "accused was confronted with both the intricacies of the law and the
advocacy of the public prosecutor" 466 U.S. 648 at 654. Therefore, a violation
of that "guarantee" is "presumptively prejudicial" Id. at 659. Because,
"lawyers...are deemed essential to protect the public interest in an orderly
society". Gideon v. Wainwright, 372 U.S. 335, 344, 83 S.Ct. 792(1963).
In the instant case, Pernell alleged he had been unknowingly deprived
of the appellate proceedings altogether to file a direct appeal. Due to
his counsel of record "secretly severing their principle-agent relationship"
in unlawful or inappropriate manner(ECF.No.196[pg.ID#1516-1518; 1526-1527;
1539]).
Accordingly, counsel's undisclosed and intentionally concealed secret
severance of his principle-agent relationship with Pernell, terminated counsel's
"authority to act as an agent on behalf of his client". Maples v. Thomas,
181 L.Ed 2d 8-7, 823-824[n.14]; 829-830, 566 U.S 266 132 S.Ct. 912(2012)(ECF.
No.197[pg.ID#1590-1594]). In doing so, counsel's lack of authority secretly
left Pernell constructively denied counsel to "confront... the intricacies
of the law and the advocacy of the public prosecutor". Cronic, 466 U.S.
at 654 r on direct appeal(ECF.No.196[pg.ID#1516]).

18

(a)

Holland v. Florida &t±brisies Equitable Tolling in the Instant Case.

The Supreme Court in Holland v. Florida, 569 UTS. 631, 649-653, 177
LEd 2d 130 S.Qt. 2549, 2559-2560(2010), found egregious attorney misconduct,
beyond the "garden variety" constituted' "extraordinary circumstances beyond
a petitioner's control" in a sufficient manner to warrant equitable tolling.
The Holland, Court also found the A.E.D.PiA Statute of Limitations "does
not set forth an inflexible rule requiring dismissal whenever its clock
has run." Id. at 2560.
Therefore, Pernell's allegations that his counsel secretly severed
their principle-agent relationship, warranted a circumstance-specific inquiry
to determine if Pernell could produce sufficient evidence to warrant equitable
tolling. If Pernell's evidence was found to be sufficient, then any alleged
"defective authorization" provisional issue, claimed by the Fourth Circuit,
would also be subject to waiver or forfeiture. In light of the tolling relief.
Holland v. Florida, 560 U.S. at 649-650(lower courts are authorized to consider
on a case by case basis specific circumstances that would have been hard
for a claimant to have predicted in advance that deemed equitable intervention).
In Pernell's case, he clearly argued it would have been impossible
to "predict-in advance" that his counsel had secretly severed their principleagent relationship, without counsel's apparent unintended error, in providing
Pernell evidence(ECF.No.197[pg.ID#1590-1594]). However, regarding Pernell's
failure to automatically seek to reinstate his right to file a direct appeal,
upon the discovery of the evidence provided by counsel. Pernell argues Equitable
Tolling and points to the Honorable Justice Souter's dissent Opinion in
Roe v.Flores, 528 U.S. 470 at 489-493» for support:
Justice Souter, in his dissent held: " Most criminal defendants.
will be utterly incapable of making rational judgements about [direct] appeal
without guidance. They cannot possibly know what a

rational decisionmaker

must know unless they are given the benefit of a professional assessment
of chances of success and risks of trying. And, they will often(indeed, usually) be
just as bad off if they seek relief on habeas after failing to take a direct appeal, h
having no right to counsel in...postconviction proceedings". 528 U.S. 4T0 at 492-93.

si 20

Justice Souter also held: "Since it[a direct appeal] cannot be made
intelligently without appreciating the merits of possible grounds for seeking
review

and the potential risks to the appealing defendant, a lay defendant

needs help before deciding...if the charge is serious, the potential claim
subtle, and a defendant uneducated, hours of counseling may be in order.
But, only in extraordinary case[s] will a defendant need no advice or counsel
whatever." 528 U.S. 470 at 489.
Justice Souter based his reasonable Opinions on the Strickland two-prong
test inquiry's reliance on the ABA Standards for Criminal Justice. 466 U.S.
at 688. Accordingly, Justice Souter cited particular relevant parts of the
ABA Standards for Criminal Justice to support his Opinion. Which States:
"Defense counsel should advise a defendant on the meaning of the
court's judgement, of defendant's right to appeal, on the possible
grounds for appeal, and of the probable outcome of appealing.
Counsel should also advise of any posttrial proceedings that might
be pursued before or concurrent with an appeal. 528 U.S. 470 at
490(quoting ABA Standard 21-2.2(b)(2d ed.1980);
"See also ABA Standards for Criminal Justice, Defense Function
4-8.2(a)(3d ed. 1993)(stating that trial counsel 'should explain
to the defendant the meaning and consequences of the court's judgement
and defendant's right to appeal' and 'should give defendant his
or her professional judgement as to whether there are meritorious
grounds for appeal and as to the probable resiilts of an appeal");
id., 4-8.2, Commentary("[C]ounsel [has the duty] to discuss frankly
and objectively with the defendant the matters to be considered
in deciding whether to appeal...to make the defendant's ultimate
choice a meaningful one, counsel's evaluation of the case must
be communicated in a comprehensible manner.... [T]rial counsel
should always consult promptly with the defendant after making
a careful appraisal of the prospects of an appeal'); ABA Standards
for Criminal Justice 21-3.2(b)(i)"". 528 U.S. 470 at 490.
Pernell contends, in light of the Honorable Justice Souter's dissent
Opinion, the presumptively prejudicial nature of Pernell's constructive denial
of counsel claim(ECF.No.196[pg.ID#1561-1562]; 1589-94 ]). Clearly deprived Pernell
of any reasonable means to understand the potential subtle claims that existed
in his trial proceedings, without the aid of loyal counsel, as an unquantifiable
consequence from the erroneous deprivation of counsel to Pernell. During the
critical stage of filing a direct appeal. Where the "meritorious grounds for
appeal" required Pernell's counsel of record to make reasonable objections
to structural errors

and to preserve the merit of those structural errors

for review on direct appeal, which counsel had secretly caused(ECF.No.196[
pg.ID#1552-1558; 1539]), by secretly severing his principle-agent relationship

with Pernell in a unlawful or inappropriate manner ."id. See also ECf INo. 197Ipg'.'
ID#1590-92]) . Which, actually terminated counsel's authority to act as an advocate
on behalf of Pernell, during the critical stage of Pernell's direct appeal, unbeknownst
to Pernell at the time(ECF.No.197[pg.ID#1591-5194]). In doing so, Pernell was
secretly and erroneously left constructively without any "professional assessment"
of the "judicial or administrative proceedings" handled by counsel, Roe, 528 U.S.
at 490-493, Which; actually'had.’""produced a result adverse to"

Pernell's case, (Id.),

that:warranteditheoesxercise of ’’"the availability, and'[the] prudence of an [direct] appeal". (Id.)
Counsel's continued unauthorized terminated advocacy on Pernell's behalf, was
presumptively prejudicial, despite the fact it was secretly being concealed by
counsel(ECF.No.l96[pg.ID#1550-1551; 1525-1526]). Counsel's misconduct ?.to:.j secretly
sever-:.! his principle-agent relationship with Pernell,

"blocked the defendant's

right to make a fundamental choice about his own defense". Mccoy v. Louisiana, 138
S.Ct. 1500, 1504(2018). Which, Pernell had no way of understanding existed, at the
time, due to counsel's prior advisements to Pernell, in order to conceal counsel's
egregious misconduct(19-7625 Doc.No.5-2[Total Page Nos.73-79]);(ECF.No.197[pg.
ID#1591-1592]). Reasonably confusing Pernell's understanding to seek a . direct appeal first.
The secret severance of counsel's principle-agent relationship with Pernell,
not only secretly deprived Pernell of the appellate proceedings altogether to file
a direct appeal. The Servance, also secretly deprived Pernell of any intelligent and
comphrensive reason to want to file a direct appeal ^fcall. idXV-PemOl (contends, it
was only after becoming aware of several Supreme Court decisions( Christeson v.
Roper, 135 S.Ct.(2015); Weaver v. Massachusetts, 137 S.Ct.(2017); and Mccoy v.
Louisiana, 138 S.Ct.(2018)), that he began to understand the reasonable implications
df counsel's initial misconduct. To unlawfully conceal evidence(ECF.No.196-4), during
Pernell's trial proceedings, in violation of a March 20, 2014, district court order
(ECF.No.196[pg.ID#1519-2I; 1517-18])^ 196-3[pg.ID#161S-1620(pts.(3)-(9)])).
Pernell argues, it was only after those aforementioned Supreme Court decisions,
that the culumative effect of them, exposed the magnitiiade of counsel's egregious mis­
conduct, was actually an undisclosed presumptively prejudicial constructive denial
of counsel, that had erroneously deprived Pernell of the appellate proceedings altogether,
id. (ECF.No. :.196{pg;IBM552-1557]), to file a direct appeal. Which, constituted
inextricably intertwined structural errors, that Should have been objected to during
Pernell's trial proceedings or during a direct appeal. Accordingly, the Supreme
Court has previously held: an "error warranting a reversal on direct appeal will
not necessarily support a collateral attack". United States
22

v. Addonizio, 442 U.S.

178, 184, 99 S.Ct.(1979)s.See also Weaver v. Massachusetts, 198 L.Ed :.2d 420,-434(2017):
" Accordingly 'any structural error warrants automatic reversal ■.■v.
on direct appeal without regard to [its] effect on the outcome of a
trial...if the error was properly objected to during the trial proceedings..
.. and if the error complained of contributed to the verdict obtained.
Weaver v. Massachusetts, 198 L.Ed 2d 420, 434(2017);
Pernell contends, it would defy any reasonable jurist's logic, that the Christeson
Court, the Weaver■Court, and the Mccoy; Court's rulings, do not squarely support
presumptively prejudicial extraordinary circumstances beyond Pernell's control to
warrant equitable tolling(ECF.No.196[pg.ID#1539; 1555-1557]; ECF.No.196-3[pg.
ID#1620-1622(pts.(6)-(10)]])), to file to reinstateVPernell's right to a direct appeal.
Pernell argues, it would also defy any reasonable jurist's logic, under
Pernell's extraordinary circumstances, that Pernell was "sophisicated" and
"educated" in the science of the law. In any sufficient capacity to understand
the adverse legal*Homplexities caused by his counsel's previously unknown violations
of the "Restatement of Agency Laws" governing an attorney-client relationship, leitendwlit
had created a' "subtle claim" to pursue a reinstatement of a direct appeal; without Pernell having
a~'jmgrn-frsgFnl

evaluation... communicated in a comprehenible manner... [by].. counsel".

Roe, at 490. In order to allow a. "professional assessment" to make a "careful
appraisal of the prosppcts of "an [defaulted direct] appeal" being filed. Instead,
of Pernell's uneducated and uniformed decision: to file an equally defaulted motion
to collaterally attack his conviction and sentence, "first. Id." While Pernell was
also suffering from neurological and pyschological mental health diseases, as well as
suffering from the adverse side-effects from the medications previously prescribed to
Pernell, as treatment for his mental health disorders(ECF.No.l96-3[pg.ID#1616I617(pts. (3)-(4) ]). Which, had unexpectedly and unknowingly been causing Pernell to suffer from a
l<stcsf.3GCjn£estraticp,„atEniory fog, memory loss, sudden confusion, aggressive agitation,
and an inability to properly cope with stress or sudden change, id.
Pernell further argues, his extraordinary circumstances, are the result of
the unquantifiable and indeterminate consequences from presumptively prejudicial
structural errors, that did not cease simply because his trial proceedings did. Pernell
contendislji it's those unquantif iable presumptively prejudicial consequences, that delayed
his ability to file to reinstate his direct appeal tight & Wad-Ahiiihad; .siropljiidati&ed: hxs
diligent pursuit(ECF.No.197[pg.ID#1589-1594]), for relief to be further prejudiced,
by the previously unknown unquantifiable consequences of the undisclosed structural
errors . Pernell contends, by laWj'ibe should not be held accountable for such consequences,
or denied relief from them. Because, to do so would only promote: .the intended result of his
counsel's machinations to conceal the Structural errors in the first place. (riLd.)
23

No. 20IN THE
SUPREME COURT OF THE UNITED STATES

ROBERT PERNELL,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

PROOF OF SERVICE

I, ROBERT PERNELL, db> swear or declare that on this date,TX/A^ V3,
2020, as required by U.S. Supreme Court Rule 29, I haved served the enclosed
PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding or
that party's counsel, and on every other person required to be served, by
depositing/an envelope containing the above documents in the United States
mail, via the Institutional Mailing System, properly addressed to each of
them and with f irst-class, ..postage prepaid, to the Solicitor General of the
United States, Room 5614, Department of Justice, 950 Pennsylvania Anvenue,
N.W • ) Washington, D.C. 20530-0001.
I declare under penalty of perjury that the foregoing is true and correct
to the best of my knowledge.
Executed on

, 2020

ROBERT PERNELL '

2i ■

However, "[under] the agency principles a client cannot be

faulted for

failing to take action on his own behalf when he lacks reason to believe his
attorney of record, in fact, [has] not been representing him". Maples, 181 L.Ed 2d
807, 823, 824[n.3](2012)(19-7625 Doc.No.5-2[T.pgs.#73-79]);(EOF.No.197[pg.ID#15891594]). Where as a laymen, Pernell's belief that "critically incorrect7advice" by
counsel was "true", reasonsably continued "through the time of filing an appeal..
..but is not mitigated by the passage of time". United States v. Bousley, 523
614, 626, 629, 118 S.Ct. 1604(1998);(EOF.No.197[pg.ID#1593-5194]).
But, again Pernell reasserts it is not for this Honorable Court to determine
whether Pernell's petition, reasonably warranted tolling. Thou, Pernell has presented
reasonable evidence that it did. Instead, Pernell contends, it is for this Honorable
Court, to determine whether the Fourth Circuit's governing provisional requirements, in
In Re Goddard, 170 F.3d 435 at 437-38, are void and unenforceable. Due to the provisions,
arbitrariness or ambiguity to erroneously trigger the jurisdictional requirements of
28 U.S.C. §2255(h). In violation of a defendant's constitutional rights, to "redress
a grievance”to the government", pursuant to the Supreme Court precedent'.case law in
Roe v. Flores, at 477-478, to reinstate his right to file a direct appeal. Which, also
violates a defendant's constitutional rights to Due Process of law while facing a crime,
and the Equal Protection of the Law in Roe, at 478. When a "Court of Appeals" fails
to conduct a "circumstance-specific inquiry" of a belated motion for direct appeal. Id.
Its-jsfallure ''mandates^1- the vacatur and Temand" • of. the „ defendant-' a ease. -Id1.
Hence, Pernell believes the Fourth Circuit has violated his 1st, 5th, and 14th
Amendment Rights of the Constitution of the United States. In a manner that also unfairly
affects the substantial rights of other defendant's in the Fourth Circuit. Requiring the
Supreme Court to provide guidance and correction to the issues. In order to maintain the
uniformity, integrity, and the appearance of justice, through out the judicial circuits.
As a result Pernell's case should be automatically vacated and remanded, consistent
with the law of Roe v. Flores, at 478.
CONCLUSION
For the above and foregoing reasons, this Writ of Cert, should be granted.
Respectfully submitted,

■r~

, 2020

ROBERT PERNELL Reg. No.33228-083
FCI Talladega
Federal Corr. Institution
P.M.B. 1000 Talladega Al. 35160
Appearing Pro-se
24

APPENDIX la
For Writ of Certiorari
Fourth Circuit Order in USCA No. 19-7625 dated June 6, 2020, denying Pernell's
Motion to Stay Mandate.

UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
1100 East Main Street, Suite 501, Richmond, Virginia 23219

June 5, 2020

LOCAL RULE 40(d) NOTICE

No.
TO:

US v. Robert Pemell, Jr.
3:09-cr-00452-REP-DJN, 3:15-cv-00723-REP-DJN
Robert L. Pemell

19-7625,

We are in receipt of your papers in this case..
This court's Local Rule 40(d) states that, except for timely petitions for rehearing
en banc, cost and attorney fee matters, and other matters ancillary to the filing of
an application for writ of certiorari with the Supreme Court, the office of the clerk
shall not receive motions or other papers requesting further relief in a case after the
court has denied a petition for rehearing or the time for filing a petition for
rehearing has expired.
Pursuant to the provisions of Local Rule 40(d), no further action will be taken in
this matter by this court. A petition for writ of certiorari may be filed in the Office
of the Clerk, Supreme Court of the United States, 1 First Street, NE, Washington,
DC 20543-0001, within 90 days of this court’s entry of judgment or, if a timely
petition for panel or en banc rehearing was filed, denial of rehearing. Additional
information on filing a petition for writ of certiorari is available on the Supreme
Court’s website, www.supremecourt.gov, or from the Supreme Court Clerk’s
Office at (202) 479-3000.
Joy Hargett Moore, Deputy Clerk
804-916-2702

